OFFICE OF INSPECTOR GENERAL

AUDIT OF SELECTED
ACTIVITIES UNDER USAID’S
HIGHER EDUCATION FOR
DEVELOPMENT PROGRAM
AUDIT REPORT NO. 9-000-12-003-P
MARCH 29, 2012




WASHINGTON, D.C.
Office of Inspector General




March 29, 2012


MEMORANDUM

TO:                  EGAT/ED Director, Richard Whelden
                     USAID/Mexico, Mission Director, Tom Delaney

FROM:                IG/A/PA Director, Steven Ramonas /s/

SUBJECT:             Audit of Selected Activities Under USAID’s Higher Education for Development
                     Program (Report Number 9-000-12-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included those comments in their
entirety (without attachments) in Appendix II.

The report contains 14 recommendations to help strengthen management of USAID’s Higher
Education for Development Program. On the basis of your responses to the draft report, we
determined that final actions have been reached on Recommendations 9, 11, and 13 and that
management decisions have been reached on the remaining 11 recommendations. Please
provide the Audit Performance and Compliance Division of USAID’s Office of the Chief Financial
Officer with evidence of final actions to close the 11 open recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Monitoring Needs Improvement ............................................................................................ 5

     Performance Data Did Not
     Meet Quality Standards ........................................................................................................ 8

     Better Communication Is Needed
     to Improve Results at USAID/Mexico .................................................................................. 10

     Unauthorized Commitment
     Occurred at USAID/Mexico ................................................................................................. 11

Evaluation of Management Comments.................................................................................. 14

Appendix I – Scope and Methodology ................................................................................... 17

Appendix II – Management Comments .................................................................................. 19

Appendix III –Results of Audit Testing
              of Performance Indicators ............................................................................... 28


Abbreviations

The following abbreviations appear in this report:

ACE                 American Council on Education
ADS                 Automated Directives System
AOTR                agreement officer’s technical representative
DQA                 data quality assessment
EGAT                Bureau for Economic Growth, Agriculture and Trade
FY                  fiscal year
HED                 Higher Education for Development
LWA                 leader with associate award
OAA                 Office of Acquisition and Assistance
OIG                 Office of Inspector General
PMP                 performance management plan
TIES                Training, Internships, Exchanges, and Scholarships
USG                 U.S. Government
SUMMARY OF RESULTS
USAID believes that education is crucial in its mission to improve lives and create opportunities.
Education programs are often carried out through partnerships that the Agency forms with U.S.
and host-country institutions. Not only do these partnerships ―enhance USAID’s ability to foster
quality education for diverse learners of all ages,‖ they also reflect the Agency’s interest in
building partnerships in all sectors. ―Many partnerships combine the expertise and resources of
USAID and several public and private sector entities such as higher education institutions, the
private sector, and non-governmental organizations.‖1

In October 2005, USAID/Bureau for Economic Growth, Agriculture and Trade (USAID/EGAT)
awarded a 5-year, estimated $319 million2 cooperative agreement to the American Council on
Education (ACE) to implement the Higher Education for Development Program (HED). Under
this leader with associate award (LWA)3 mechanism, HED was to deliver a variety of human and
institutional capacity development activities. In September 2010, USAID/EGAT extended HED’s
period of performance by another 5 years and increased the estimated cost by $17 million,
bringing the total to $336 million.

HED seeks to improve the human and institutional capacity of higher education institutions in
aid-assisted countries to address national and regional development needs, such as providing
education, training, applied research, technology, and policy advice to encourage development,
economic growth, good governance, and healthy societies. To accomplish these tasks, HED
provides support for regional and worldwide activities under the leader award and issues sub-
awards to selected U.S. institutions to form partnerships with foreign institutions in countries
receiving aid to work together to implement HED activities.

As of March 31, 2011, HED managed 69 active higher education partnerships in 30 countries
involving 71 host-country and 54 U.S. higher education institutions. USAID’s Latin America and
the Caribbean Region had nearly half the partnerships, followed by Sub-Saharan Africa, Asia
and Near East, and Europe and Eurasia Regions, as shown on page 2. As of September 30,
2011, HED had spent about $53 million on education activities under the LWA.

The Office of Inspector General (OIG), Performance Audits Division, conducted this audit as
part of its fiscal year (FY) 2011 audit plan to determine whether USAID adequately monitored
selected activities under HED to ensure that intended results were being achieved.4 The audit
specifically focused on USAID/EGAT’s monitoring of the results that the implementer (ACE)
achieved under the LWA and 13 judgmentally selected partnerships (11 funded by associate
awards from four USAID missions, including USAID/Mexico, and 2 funded under the leader
award), as described in Appendix 1.



1
  See http://www.usaid.gov/our_work/education_and_universities.
2
  The estimated $319 million included $55 million for the leader award, $250 million for associate awards,
plus $14 million through cost sharing.
3
  An LWA involves the issuance of an award that covers a specified worldwide activity. The initial
awardee is the leader, and under the leader award, a mission or bureau can award separate associate
agreements to the leader award recipient, without additional competition, to support a distinct activity
within the terms and scope of the leader award.
4
  Appendix III lists HED’s performance indicators and actual results achieved from FY 2008 through 2010.


                                                                                                        1
                    Active Partnerships by Region as of March 31, 2011




Audit testing confirmed that HED has had some success in improving human and institutional
capacity development in host-country institutions. In addition, HED was effective in bringing
stakeholders and higher education experts together to discuss ideas such as how to track the
contributions higher education makes to international development. HED made positive
contributions in addressing violence and social disintegration along the U.S.-Mexico border
through its community outreach activities. The following are specific examples of some
achievements:

   Human capacity building. To help Mexico adopt a more democratic rule of law, HED
   provided trial advocacy training to Mexican law school faculty and students, attorneys, and
   judges through HED’s Training, Internships, Exchanges, and Scholarships (TIES)
   partnership between Emory University and Universidad Panamericana.

   Institutional capacity building. HED contributed to strengthening institutional capacity by
   revising the curricula and improving teaching for host-country institutions that provide tertiary
   education.

   Roundtable activities. In light of USAID’s new education strategy, HED hosted a
   performance indicator roundtable on October 28, 2010, to identify clearly defined
   performance indicators that would help the U.S. Government track contributions higher
   education makes to international development.

   Community outreach activities. HED conducted community outreach activities to address
   violence and social disintegration along the U.S.-Mexico border. For example, at-risk youths
   in grades 6 through 12 who live in low-income neighborhoods of Ciudad Juarez participated
   in three after-school sessions per week, integrating sports and related social skills with
   academic instruction and visits to cultural organizations in the city.

Despite these positive outcomes, audit testing revealed that USAID/EGAT needs to strengthen
its monitoring of HED activities to ensure that intended results are being achieved. Specifically,
the audit found the following problems:



                                                                                                  2
   Monitoring needs improvement (page 5).

   Performance data did not meet quality standards (page 8).

   Better communication is needed to improve results at USAID/Mexico (page 10).

   Unauthorized commitment occurred at USAID/Mexico (page 11).

To strengthen USAID’s HED activities, the audit recommends that USAID/EGAT:

1. Develop a performance management plan (PMP) in accordance with USAID guidelines that
   includes the new performance indicators (page 8).

2. Review and revise targets as appropriate, and communicate with partners regarding
   established targets (page 8).

3. Conduct a more thorough, rigorous data quality assessment (DQA); specifically verify
   source data and data acquisition methodologies on all standard performance indicators that
   HED is required to report on (page 8).

4. Work with USAID’s Office of Acquisition and Assistance (OAA) to establish a plan to transfer
   any Washington-based awards to the mission where the activity is occurring or to devise a
   plan to help monitor the activities (page 8).

5. Work with ACE to develop and implement procedures for regular monitoring of HED
   activities and data acquisition methods and verifying data quality (page 8).

6. Work with ACE to develop a more realistic reporting time frame for reporting data on HED’s
   performance indicators and to minimize the need for estimates (page 10).

7. Develop and implement procedures to verify data included in its Performance Plan and
   Reports and USAID’s Performance Accountability Report (page 10).

8. Fully disclose any data limitations in its Performance Plan and Reports and USAID’s
   Performance Accountability Reports and the resulting implications for assessing the
   measurement and achievement of intended results (page 10).

To help USAID/Mexico improve communications with USAID/EGAT and strengthen its internal
controls to prevent future unauthorized commitments, the audit recommends that
USAID/Mexico:

9. Develop procedures to better communicate with USAID/EGAT and seek participation to
   jointly evaluate problems or progress of HED and come up with steps to address those
   problems (page 11).

10. Review the unauthorized commitment and ratify it or take other action as deemed
    necessary, and document the deposition (page 12).




                                                                                             3
11. Implement procedures and issue instructions that all communication regarding changes that
    directly affect the award amount or other budgetary changes to the associate award and the
    subawards under it come directly from the agreement officer (page 12).

12. Implement procedures for the agreement officer to improve his or her supervision over the
    agreement officer’s technical representative (AOTR) (page 13).

13. Counsel the staff members involved in providing inaccurate guidance to ACE on the extent
    of their authority and the risks involved if they exceed it (page 13).

14. Assess the training needs of agreement and contracting officers’ technical representatives,
    and implement a plan to provide them and their alternates with refresher training as
    necessary to increase awareness of their roles and responsibilities (page 13).

Detailed findings follow. The audit scope and methodology are described in Appendix I.
USAID/EGAT and USAID/Mexico’s comments are shown in their entirety (without attachments)
in Appendix II. Our evaluation of management comments is on page 14 of the report.




                                                                                             4
AUDIT FINDINGS
Monitoring Needs Improvement

USAID believes that achieving the objectives of its programs is crucial to maintaining the
Agency’s credibility and accountability to stakeholders. To this end, managing for results is a
key process the Agency uses to achieve development objectives. USAID’s Automated
Directives System (ADS) 203.3.2 states:5

        Performance management is the systematic process of monitoring the
        achievements of program operations. Monitoring reveals whether desired results
        are occurring and whether outcomes are on track.

ADS 203 provides tools such as the PMP and DQA to help USAID determine how well
programs are working.

Additionally, ADS 303 sets guidelines for the AOTR6 so that he or she prudently manages
programs by monitoring and evaluating their progress throughout the duration of the award.
Specifically, the AOTR is responsible for maintaining contact with the recipients through site
visits, by reviewing and analyzing reports, monitoring reporting requirements, and ensuring
compliance with the terms and conditions of the award. Moreover, the AOTR is responsible for
notifying the agreement officer promptly of any developments that could have a significant
impact on the recipient’s performance.

However, the AOTR responsible for monitoring HED did not effectively carry out all of his
responsibilities in the following areas.

No Performance Management Plan. According to the LWA cooperative agreement, ACE was
required to submit a PMP that identified benchmarks and facilitated the ongoing monitoring of
results achieved. At a minimum, plans must permit collection of data for accurate reporting
against the results and indicators. Plans must also include measures by which programmatic
impacts (and not just programmatic events or outputs) can be assessed. Despite this
requirement, ACE did not submit a PMP for AOTR approval to assist in managing HED’s
progress. Consequently, the following problems occurred:

    ACE did not establish baseline values to use in measuring the degree of change in
    conditions. According to the agreement, baselines were critical to measure success and
    fairly evaluate the recipient’s progress. However, HED has not collected baseline data for
    its standard indicators since the program began in 2006, and USAID/EGAT has not made
    determining baselines a priority. Without performance baseline data, USAID/EGAT cannot
    definitively evaluate or measure the degree of change HED is making in higher education in
    targeted countries.


5
  ADS 203, ―Assessing and Learning,‖ was revised on February 10, 2012. The citations in this report refer
to the previous version of ADS, in effect at the time of the audit.
6
  On January 1, 2012, USAID changed the term ―AOTR‖ to ―AOR‖ (agreement officer’s representative) to
align with changes in the Federal Acquisition Regulation. Because audit fieldwork occurred before the
change, this report uses AOTR.


                                                                                                       5
   ACE did not set realistic performance targets. Agency directives define a performance
   target as a specific, planned level of result to be achieved within an explicit time frame,
   which should be ambitious but achievable. However, according to ACE, the targets had no
   real basis, nor were they assessed; in fact, ACE and the AOTR said targets were usually a
   ―shot in the dark‖ or a ―moving target.‖ Therefore, USAID/EGAT’s reported results were
   significantly higher or lower than the targets, ultimately making them ineffective in measuring
   HED’s performance. For example, for FY 2008 USAID/EGAT planned to train 2,800 host-
   country individuals (Performance Indicator 4); however, HED trained 9,689 or 346 percent of
   the target (Table III-2 in Appendix III). That same year, USAID/EGAT planned to strengthen
   institutional capacity of the participating universities by making 106 organizational
   improvements (Performance Indicator 9); HED made 236 instead, or 223 percent of the
   target (Table III-2 in Appendix III). Unrealistic and moving targets made it difficult to track
   progress and assess whether planned results were actually achieved.

   ACE did not establish a consistent, reliable system of data collection. From the beginning of
   HED until 2011, ACE struggled with accessing and compiling the data for the nine
   performance indicators. First, it had to get the data from many independent data sources.
   For example, ACE extracted data from more than 69 progress reports. Second, the data
   were buried within the narratives of the progress reports. Since ACE did not integrate the
   standard indicators within its reporting process, there was no systematic way to know which
   activities related to fulfilling specific indicators. ACE had to manually enter the data into
   Excel once the data were extracted—a process that was highly susceptible to errors such as
   double counting and inaccurate reporting. This problem is discussed in the next finding.

According to USAID/EGAT, it was very difficult to prepare a PMP because of the change in
USAID’s administration, the shift in performance planning to the State Department, and the
constant changes in the overall focus and type of indicators USAID/EGAT wanted to measure.
In addition, it seemed impractical at the time to do so until the Agency established clear
guidance regarding the performance indicators.

Monitoring HED’s progress is essential to making sure that intended results are achieved and
compiling reliable data to help decision makers make informed decisions. The PMP contributes
to the effectiveness of the performance monitoring system by ensuring that performance data
are collected on a regular, timely basis. Without a well-defined PMP, neither USAID/EGAT nor
ACE had a consistent method for determining whether desired results were being achieved or
whether USAID/EGAT or ACE was maintaining the elements that were essential to a credible,
useful performance-based management system.

At the time of the audit, ACE was working in close collaboration with USAID/EGAT to develop
systems that address the problems caused by the lack of a PMP, including establishing new
performance indicators.

Lack of Thorough, Rigorous Data Quality Assessments. In line with USAID’s principle of
achieving its development objectives, all data used in external reports about the Agency must
undergo a DQA. The purpose of the assessment is to ensure that USAID and the implementer
are aware of the strengths and weaknesses of the data as determined by applying data quality
standards provided in Agency directives and that they are aware of the extent to which the data
integrity can be trusted to influence management decisions. Additionally, the rigor of the DQAs,
as stated in Agency directives, depends on the kind of sources used and the level of control that
USAID has over the data. Although USAID/EGAT required ACE to conduct DQAs, the
assessments did not include a rigorous review of the data.


                                                                                                6
Limited Site Visits. USAID/EGAT, ACE, and the mission did not make enough site visits to
monitor HED’s activities effectively. While USAID/EGAT staff members conducted some visits
between October 2008 and March 2011, their reports on the visits did not indicate whether they
verified data quality or validated results reported by HED. The AOTR for the LWA said the staff
members did not spot-check data for validity and reliability. Rather, they relied on ACE to verify
the accuracy of the data since it was responsible for the results. According to USAID/EGAT,
staff shortages, limited operating expense funds, and other office responsibilities prevented the
staff from conducting more regular site visits. ACE’s ability to make field visits diminished
because of security restrictions and lack of funding, thus forcing it to monitor progress primarily
through phone calls, electronic communication, and progress reports.

Associate Awards Not Transferred to the Field. ADS 200.3.2.4 states:

       USAID’s principle of empowerment and accountability reflects the belief that
       success requires that USAID allows those organizational units that are closest to
       the ―front lines‖ to participate in decision-making and that it maintains an
       appropriate balance between authority and responsibility. Empowerment and
       accountability directly complement the guiding principles of teamwork and
       managing for results. It recognizes that to succeed, USAID should delegate
       authorities to the people closest to the action, who are in the best position to see
       and react to a changing environment and to the changing needs of customers,
       partners, and stakeholders.

The AOTR’s ability to manage and provide effective oversight of HED was impaired because,
along with the LWA, the AOTR had to manage six associate awards for USAID missions in
Burundi, Egypt, El Salvador, Guyana, Jordan, and South Africa.

The LWA AOTR is based in Washington, while the cognizant mission AOTR and missions are
responsible for the administration and management of the associate awards. However, in an
effort to get awards signed, OAA in Washington negotiated six associate awards in September
2008 for $3.7 million in total and instructed USAID/EGAT to transfer them to the missions
mentioned above. Three years later, USAID/EGAT had transferred only three. The remaining
three are still under the management and administration of the LWA AOTR. Since these
awards were due to end early in 2012, the LWA AOTR had to manage them during the majority
of their duration—approximately 2.5 years.

According to USAID/EGAT, the delay occurred because of many unforeseen events, such as
transferring procurement document records, launching the Agency’s new acquisition and
assistance system, and multiple changes of agreement officers in the Office of Education.

The missions and their AOTRs must also be willing to accept the awards. In this case, the
missions simply declined to do so for various reasons, such as change in priorities, lack of an
AOTR, and heavy workloads. In the case of Guyana, USAID officials stated that since the
mission planned to close in 2012, it was not time-conducive to transfer the award.

To succeed as the directive states, programs should be managed by organizational units
closest to the front lines. Specifically, by transferring the management of associate awards to
the respective USAID missions, the LWA AOTR should be able to focus more on managing and
monitoring the leader award.




                                                                                                 7
To address the HED management problems described above, we make the following
recommendations.

   Recommendation 1. We recommend that USAID/Economic Growth, Agriculture and
   Trade develop a performance management plan in accordance with USAID guidelines
   that includes the new performance indicators.

   Recommendation 2. We recommend that USAID/Economic Growth, Agriculture and
   Trade, in coordination with the American Council on Education and Higher Education for
   Development, review and revise its targets as appropriate and communicate with
   partners regarding established targets.

   Recommendation 3. We recommend that USAID/Economic Growth, Agriculture and
   Trade conduct a more thorough and rigorous data quality assessment, verifying source
   data and data acquisition methodologies, on all standard performance indicators that
   Higher Education for Development is required to report on.

   Recommendation 4. We recommend that USAID/Economic Growth, Agriculture and
   Trade work with USAID’s Office of Acquisition and Assistance to establish a plan to
   transfer any Washington-based awards to the mission where the activity is occurring or
   to devise a plan to aid in monitoring the activities.

   Recommendation 5. We recommend that USAID/Economic Growth, Agriculture and
   Trade work with the American Council on Education to develop and implement
   procedures for regular monitoring of Higher Education for Development activities and
   data acquisition methods and verification of data quality.

Performance Data Did Not
Meet Quality Standards
To help projects deliver their planned outputs and meet their overall objectives, ADS 203.3.2.1
outlines performance management steps for operating units to follow. The steps include: (1)
establishing a performance management framework; (2) collecting and analyzing performance
information to track progress toward planned results; (3) using performance information to
influence development objective decision-making and resource allocation; and (4)
communicating results achieved, or not achieved, to advance organizational learning and
demonstrate the Agency’s contribution to achieving the overall U.S. Government (USG) foreign
assistance goal.

In addition, for performance data to be useful in managing for results and credible for reporting,
ADS 203.3.5.1 states:

       Operating units should ensure that the performance data meet data quality
       standards of validity and reliability to clearly and adequately represent intended
       results and to confidently ensure that progress toward performance targets
       reflects real changes rather than variations in data collection methods
       respectively.

ADS further states that known data limitations should be reported so that decision makers
understand what the data can and cannot say.



                                                                                                8
Contrary to these directives, the audit found that for FYs 2008, 2009, and 2010, USAID/EGAT
officially certified and reported performance data that were not valid or reliable in various formal
reports, such as Performance Plan and Report and most importantly, the Agency’s Performance
Accountability Report.         Specifically, there were significant variances between what
USAID/EGAT reported as achieved and what the program actually achieved per HED’s
database on four of the nine performance indicators shown in Appendix III (Table III-1). For
example, USAID/EGAT reported that 479 host-country individuals completed exchange
programs through higher education institutions (Performance Indicator 2) in FY 2008, but only
285 did, resulting in an overstatement of 68 percent. For FY 2010, USAID/EGAT reported that
191 host-country individuals completed the programs, while only 102 did, resulting in an
overstatement of 87 percent. For Performance Indicator 6, USAID/EGAT reported that 208
higher education activities addressed development needs; however, HED achieved only 102,
resulting in an overstatement of 104 percent for FY 2009.

These variances were mainly due to inconsistent data collection methodologies and a lack of an
adequate review of performance data to ensure accuracy. For example, Performance Indicator
2 was supposed to track only the number of host-country individuals completing U.S.-funded
exchange programs conducted through higher education institutions. However, USAID/EGAT
counted all individuals completing such programs instead of only those from host countries.

The variances for Performance Indicator 6 occurred because ACE was unable to review the
quality and accuracy of reported information. According to ACE, USAID/EGAT required it to
submit performance data during the first week of November of each fiscal year—almost
immediately after the October 31 deadline. As a result, ACE was unable to fully review the
quality and accuracy of reported information under such a tight time frame. Moreover, not all
partnerships submitted performance data on time.

Further, performance data that USAID reported internally and externally did not capture the
actual achievements for FYs 2008 to 2010. Instead, USAID reported estimates for five of the
nine standard performance indicators without disclosing that HED data were estimates, and
USAID did not correct the information (Tables III-2 and III-3 in Appendix III). For example,
USAID/EGAT underreported the number of scholarships given to attend higher education
institutions (Performance Indicator 3) by 30 percent in FY 2009. Similarly, USAID/EGAT
underreported the number of organizational improvements that strengthened the capacity of the
institutions (Performance Indicator 9) by 50 percent in FY 2010.

ACE and its partners used estimates because they said that USAID/EGAT’s deadline gave
them very little time to check, verify, and consolidate data. However, USAID/EGAT did not
disclose this data limitation in its formal reports so that decision makers could clearly
understand that performance data were based on estimates. Because various stakeholders use
information from these reports as they examine past performance to assess future plans and
establish future year budgets, using estimates can lead to making incorrect decisions.

Additionally, we found that none of the three partnerships whose offices we visited could fully
support reported results during site visits. In one instance, one partnership could not support
the number of host-country individuals it trained. Most significantly, the reported results of this
particular partnership accounted for at least 60 percent of the entire HED reported results
contributing to one performance indicator. In another instance, a program representative
informed us that he was not sure whether the activities reported in progress reports even
happened, making the reported results questionable.



                                                                                                  9
Such data integrity problems need to be resolved in order to improve USAID/EGAT’s ability to
present accurate, reliable results that describe its achievements to Congress, the Office of
Management and Budget, other USG agencies, the public, donors, multinational organizations,
host-country partners, and nongovernmental organizations. Because of these problems, the
Agency’s reported results in Appendix III should be interpreted with caution.

While we recognize that USAID/EGAT and ACE are already working to resolve these problems,
we reiterate the necessity of resolving them quickly because of the significance of the reports.
Without accurate, reliable information on program results, USAID/EGAT will not be able to
monitor HED’s progress adequately to determine whether it is achieving intended results or
report reliable information to decision makers.         Therefore, we make the following
recommendations.

   Recommendation 6. We recommend that USAID/Economic Growth, Agriculture and
   Trade work with the American Council on Education to develop a more realistic reporting
   time frame for reporting data for Higher Education for Development’s performance
   indicators and to minimize the need for estimates.

   Recommendation 7. We recommend that USAID/Economic Growth, Agriculture and
   Trade develop and implement procedures to verify data included in its sector’s
   Performance Plan and Report and USAID’s Performance Accountability Report.

   Recommendation 8. We recommend that USAID/Economic Growth, Agriculture and
   Trade fully disclose any data limitations in its sector’s performance plan and report and
   USAID’s performance accountability report and their implications for assessing the
   measurement and achievement of intended results.

Better Communication Is
Needed to Improve Results
at USAID/Mexico
ADS 203.3.2.1.d states that one of the four principle steps in performance management is:

       Communicating results achieved or not achieved, to advance organizational
       learning and demonstrate the Agency’s contribution to achieving the overall USG
       foreign assistance goal. Communication is a powerful element of performance
       management.

ADS 203.3.2.2 further elaborates that to implement performance management effectively,
USAID Missions, Bureaus/Independent Offices, and their Development Objective teams should
demonstrate a broad commitment to key principles and practices that foster a performance-
oriented culture. USAID’s credibility is enhanced when its teams employ the following
principles and practices as regular parts of their performance management efforts:

    Seek participation (ADS 203.3.2.2.c) by involving USAID and USG entities in collecting,
    interpreting, and sharing performance monitoring experiences; jointly reviewing evaluation
    results; jointly planning for dissemination of those evaluation results among others.

    Be transparent (ADS 203.3.2.2.e) by conveying clearly and accurately the problems
    that impede progress and steps that are being taken to address them.


                                                                                               10
Yet the audit found that USAID/Mexico did not communicate with the USAID/EGAT AOTR, who
managed the core LWA cooperative agreement, thus missing an opportunity to achieve the best
possible development outcomes and to create synergies to make a bigger impact.

USAID/Mexico had the largest associate award (totaling $20.2 million) with ACE. Although the
mission and USAID/EGAT collaborated before and during the negotiations for the award, the
auditors learned that they did not communicate much afterward. For example, the auditors
learned that USAID/Mexico experienced financial management problems with ACE, such as a
large financial pipeline due to low burn rates among the partnerships caused by delays in
submitting their expense vouchers.      However, the mission did not communicate with
USAID/EGAT to find a viable solution because the lines of communication were unclear since
the associate award was between ACE and the mission, not directly with USAID/EGAT.

Communication leads to improved processes, better application of lessons learned, and
identifiable solutions to minimize errors, weaknesses, and deficiencies. Communication
between USAID/EGAT and missions should enable HED to make significant improvements on a
wider platform and achieve desired results. In addition, the problem discussed above could
have been avoided had USAID/Mexico communicated with USAID/EGAT to evaluate jointly the
progress and problems that impeded progress and develop steps to address them. Therefore,
we make the following recommendation.

   Recommendation 9. We recommend that USAID/Mexico develop and implement
   procedures to better communicate with USAID/Economic Growth, Agriculture and Trade,
   and seek participation to evaluate jointly the progress and problems that impede
   progress of Higher Education for Development and come up with steps to address those
   problems.

Unauthorized Commitment
Occurred at USAID/Mexico
ADS 303.3.18 states:

       When a USAID official, who does not have the authority to do so, acts in a way
       that leads a recipient or potential recipient acting in good faith to believe that
       USAID has committed to make a specific award; change the amount of an
       existing award; or, revise an existing award budget, program description, or any
       of the terms and conditions of the award, the official has made an unauthorized
       commitment. It is against U.S. Government and USAID policy to enter into
       unauthorized commitments.

USAID’s directives on the AOTR’s scope and authority include steps on how to avoid making
unauthorized commitments. Specifically, the Additional Help for ADS Chapter 303 (―Agreement
Officer’s Technical Representative Designation – Cooperative Agreement Administration‖)
states that the AOTR’s authority does not include making any changes in the program
description, the terms and conditions of the award, or the total estimated budget. This is the
sole responsibility of the agreement officer because the agreement officer has legal
responsibility for the award; therefore, only the agreement officer can take action on behalf of
USAID to enter into, change, or terminate an award.




                                                                                             11
Despite these directives, USAID/Mexico’s AOTR led ACE officials to believe that the mission
approved their request to make three new sub-awards and that the mission would later increase
the associate award’s ceiling amount to cover additional costs, but this was done without
expressed approval from the agreement officer, resulting in an unauthorized commitment
totaling $3.3 million.

In May 2010, USAID/Mexico gave ACE approval to issue subawards to three partnerships
whose work would focus on some of the country’s most pressing needs. In July 2010, ACE
officials asked the mission to increase the ceiling from $20.2 million to a projected level of
$23.5 million when they realized that by issuing the new subawards, the existing ceiling of the
associate award would be exceeded by $3.3 million.

According to USAID/Mexico’s records, the AOTR advised ACE officials that there was no need
to increase the ceiling at that time because (1) ACE was not committing funds in signing
subawards, (2) ACE was sub obligating funds well within the ceiling at that time, (3) ACE had an
existing mortgage of $7 million,7 and (4) future funding depended on availability of funds,
satisfactory performance, and mission objectives. Based on this information, ACE proceeded to
issue one new subaward in July 2010 and the other two in September 2010. ACE officials said
they believed that the clear message from USAID was to issue the new subawards regardless
of the uncertainty of funding.

However, the AOTR’s advice to ACE was misguided and contrary to USAID policy directives.
First, signing subawards does commit funds. As defined by ADS 621, ―A commitment is an
administrative reservation of funds in anticipation of an obligation, and a binding agreement
such as a signed subaward is the supporting documentation required to record the obligation.‖
Second, when ACE issued the new subawards, it exceeded the ceiling of the associate award,
despite having an existing mortgage of $7 million. Third, although future funding depends on
the availability of funds and other stated conditions, this does not allow the mission to enter into
unauthorized commitments. Finally, the AOTR exceeded authority outlined in her AOTR
designation letter and ADS 303; only the agreement officer can take action on behalf of USAID
to enter into, change, or terminate an award.

As previously stated, it is against USAID policy to enter into unauthorized commitments. Doing
so potentially holds the USG liable for commitments it did not make. ADS 303.3.18 requires
that unauthorized commitments be ratified—or approved—by an official who has the authority to
do so. Agencies are to take positive action to prevent, to the maximum extent possible, the
need for ratification actions.

To address the unauthorized commitment made and to prevent more from occurring in the
future, we make the following recommendations.

    Recommendation 10. We recommend that USAID/Mexico review the unauthorized
    commitment and ratify it or take other action as deemed necessary, and document the
    deposition.

    Recommendation 11. We recommend that USAID/Mexico implement procedures and
    issue instructions that all communication regarding changes that directly affect the award


7
  A mortgage is defined as a claim on future resources, the difference between the total planned level of
funding and the cumulative total amount of funds obligated.


                                                                                                      12
amount or other budgetary changes to the associate award, and the subawards under it,
come directly from the agreement officer.

Recommendation 12. We recommend that USAID/Mexico implement procedures for
the agreement officer to improve his or her supervision over the agreement officer’s
technical representative.

Recommendation 13. We recommend that USAID/Mexico counsel staff members
involved in providing inaccurate guidance to the implementer on the extent of their
authority and the risks involved if that authority is exceeded.

Recommendation 14. We recommend that USAID/Mexico assess the training needs of
agreement and contracting officers’ technical representatives and implement a plan to
provide them and their alternates with refresher training as necessary to increase
awareness of their roles and responsibilities.




                                                                                        13
EVALUATION OF MANAGEMENT
COMMENTS
In their responses to the draft report, USAID/EGAT agreed with Recommendations 1 through 8,
and USAID/Mexico agreed with Recommendations 9 through 14. On the basis of information
provided, we determined that final actions have been taken on Recommendations 9, 11, and 13
and that management decisions have been reached on the remaining 11 recommendations.
The Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
will determine whether final actions have been achieved once the planned corrective actions are
completed. Our evaluation of management comments on the 14 recommendations is shown
below.

Recommendation 1. USAID/EGAT agreed to develop a PMP in accordance with USAID
guidelines. ACE submitted a draft PMP that includes a newly approved set of 12 standard
performance indicators.  Given these actions and supporting documents received, we
determined that a management decision has been reached. Final action will happen when
USAID/EGAT approves the final PMP by June 30, 2012.

Recommendation 2. USAID/EGAT agreed to review and revise the targets and communicate
with partners regarding established targets. The draft PMP that ACE submitted included a
procedure and rationale for setting targets as well as a communication process to its partners.
In particular, USAID/EGAT and ACE will jointly review and revise targets accordingly during the
November review of partner data submissions. After reviewing these actions and supporting
documents received, we determined that a management decision has been reached. Final
action will happen when USAID/EGAT approves the final PMP by June 30, 2012.

Recommendation 3. USAID/EGAT agreed to conduct a more thorough, rigorous DQA,
verifying source data and data acquisition methodologies on all standard performance indicators
that HED is required to report on. USAID/EGAT and ACE established the HED Data Quality
Verification and Assessment Policy, which provides a framework for a more robust DQA
process. In addition, USAID/EGAT and ACE jointly developed PRIME (Partnership Results and
Information Management Engine), a comprehensive Web-based system for managing and
reporting results that was scheduled to be launched in April 2012. PRIME will have the ability to
capture and organize source documentation to support and verify reported data. Each ACE
managed partnership will be required to use PRIME for performance management planning,
data reporting, data quality verifications, baseline data documentation, and DQAs. Given these
actions and supporting documents received, we determined that a management decision has
been reached. USAID/EGAT plans to complete final action by June 30, 2012.

Recommendation 4. USAID/EGAT agreed to work with OAA to establish a plan to transfer any
Washington-based awards to the mission where the activity is occurring or to devise a plan to
help monitor the activities. USAID/EGAT and OAA have successfully transferred three of the
six associate awards to field missions. The remaining three awards were not transferred. Two
were not because they ended on December 31, 2011, and February 29, 2012, respectively. For
the third award, scheduled to end in February 2013, since the only remaining activity is a
training that takes place at the University of South Carolina, USAID/EGAT, and OAA determined
that it would be ―managerially much easier‖ for USAID/EGAT to monitor the award. Given these



                                                                                              14
actions and supporting documents received, we determined that a management decision has
been reached. USAID/EGAT plans to complete final action by August 2, 2012.

Recommendation 5. USAID/EGAT agreed to work with ACE to develop and implement
procedures for regular monitoring of HED activities, data acquisition methods, and verification of
data quality. In addition to its response to Recommendation 2, USAID/EGAT and ACE will
implement data quality reviews that include monitoring ACE data acquisition methods and
verification of data quality. Moreover, USAID/EGAT and ACE established a template that staff
members are required to fill out with information such as details of data, financial information,
success stories, and lessons learned when conducting monitoring visits. Given these actions
and supporting documents received, we determined that a management decision has been
reached. USAID/EGAT plans to complete final action by June 30, 2012.

Recommendation 6. USAID/EGAT agreed to work with ACE to develop a more realistic
reporting time frame for reporting data on HED’s performance indicators and to minimize the
need for estimates. USAID/EGAT reached an agreement to move ACE’s reporting deadline
from the first week of November to December 7 of each fiscal year. This date gives
USAID/EGAT and ACE more time to conduct all the reviews necessary to minimize the need for
estimates. Given these actions and supporting documents received, we determined that a
management decision has been reached. USAID/EGAT plans to complete final action by
June 30, 2012.

Recommendation 7. USAID/EGAT agreed to develop and implement procedures to verify data
included in the education sector’s Performance Plan and Reports and USAID’s Performance
Accountability Report. As discussed in Recommendations 2 and 5 above, the procedures to
verify data that USAD/EGAT and ACE developed are to be applied to the data included in these
reports. Given these actions and supporting documents received, we determined that a
management decision has been reached. USAID/EGAT plans to complete final action by June
30, 2012.

Recommendation 8. USAID/EGAT agreed to fully disclose any data limitations in its formal
reporting process. Specifically, any data submissions from ACE that are in USAID’s formal
reports will include a full disclosure on all data limitations and their resulting implications for
assessing the measurement and achievement of intended results. Based on these actions, we
determined that a management decision has been reached. USAID/EGAT plans to complete
final action by June 30, 2012.

Recommendation 9. USAID/Mexico agreed to develop procedures to better communicate with
USAID/EGAT and to seek its participation in jointly evaluating HED problems and devising ways
to solve them. USAID/Mexico has improved communication with USAID/EGAT and has
implemented procedures that now require USAID/EGAT’s AOTR of the leader award to be
copied on substantive correspondence related to HED. Also, USAID/Mexico is in direct
communication with USAID/EGAT on the status of HED and has collaborated with
USAID/EGAT’s AOTR to jointly review the planned closeout of HED. As a result, ACE is getting
consistent guidance from USAID/EGAT and USAID/Mexico for managing the closeout process,
including how to handle partnerships funded by both the leader and associate awards. Based
on these actions and supporting documents received, we conclude that final action has been
taken on this recommendation.

Recommendation 10.       USAID/Mexico agreed to review and ratify the unauthorized
commitment accordingly. However, since the mission decided to terminate its associate award


                                                                                                15
with HED approximately 3 years earlier than originally expected (November 2012 rather than
September 2015), the total amount of funds currently projected to be spent under the
agreement is within the existing agreement ceiling amount. Therefore, ratification action is no
longer necessary. Given these actions and supporting documents received, we determined that
a management decision has been reached. USAID/Mexico plans to complete final action by
April 30, 2012, upon execution of a modification to the agreement to terminate early.

Recommendation 11. USAID/Mexico agreed to implement procedures and issue instructions
that all communication regarding changes that directly affect the award amount or other
budgetary changes to the associate award and the subawards under it come directly from the
agreement officer. USAID/Mexico designated a new AOTR in December 2011. The AOTR
designation letter that the new AOTR signed includes clear instructions regarding the roles and
responsibilities of the AOTR and agreement officer. Specifically, this letter states that all
communication regarding changes that directly affect the award amount or other budgetary
changes to the associate award and the subawards under it come directly from the agreement
officer. Given these actions and supporting documents received, we conclude that final action
has been taken on this recommendation.

Recommendation 12. USAID/Mexico agreed to implement procedures for the agreement
officer to improve its supervision of the AOTR. A new AOTR has been designated, and the
agreement officer provided clear instructions and authority limitations through the AOTR
designation letter. In addition, the agreement officer will provide refresher training to all
USAID/Mexico’s agreement and contracting officers’ technical representatives in May 2012 to
further reinforce the instructions included in the designation letter. The training will include a
discussion of roles and responsibilities as well as authority limitations and risks involved if
authorities are exceeded. Given these actions and supporting documents received, we
determined that a management decision has been reached. USAID/Mexico plans to complete
final action by June 30, 2012.

Recommendation 13. USAID/Mexico agreed to counsel the staff members involved in
providing inaccurate guidance to ACE on the extent of their authority and the risks involved if
they exceed it. However, those staff members are no longer employed by USAID/Mexico. As a
result, this recommendation is no longer necessary. We consider this recommendation closed.

Recommendation 14. USAID/Mexico agreed with the recommendation to assess training
needs of agreement and contracting officers’ technical representatives and implement a plan to
provide them and their alternates with refresher training as necessary to increase awareness of
their roles and responsibilities. In particular, as mentioned in Recommendation 12, the
agreement officer will provide such refresher training to all USAID/Mexico’s agreement and
contracting officers’ technical representatives in May 2012. Given these actions and supporting
documents received, we determined that a management decision has been reached.
USAID/Mexico plans to complete final action by June 30, 2012.




                                                                                               16
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe the evidence obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID adequately monitored its HED
program to ensure that it achieved intended results. We conducted audit fieldwork at
USAID/EGAT’s office and at the implementing partner’s office in Washington, D.C. We also
conducted site visits at three U.S. higher education institutions (two located in Atlanta, Georgia,
and one in El Paso, Texas), three foreign institutions located in Mexico, and USAID/Mexico. We
conducted audit fieldwork from September 6, 2011, through November 28, 2011. The audit
covered activities implemented from FY 2008 through 2010, which included testing the reported
results for all nine of HED’s performance indicators in Appendix III.

In planning and performing our audit, we assessed USAID/EGAT’s internal controls.
Specifically, we obtained an understanding of and evaluated USAID/EGAT’s organizational
structure, assistance processes, monitoring and evaluation procedures, and reporting
processes. We also assessed management controls, proper execution of transactions, and
review of performance measure and indicators. Specifically, we reviewed and evaluated the
following:

   ACE’s agreements (including the subagreements between the implementer and the U.S.
   institutions, and the agreements between the U.S. institutions and the foreign
   institutions)

   ACE’s semiannual and annual progress reports

   ACE’s supporting documentation for data reported on all nine HED performance
   indicators

   Targets and actual performance results

   Site visit reports from USAID/EGAT, mission staff, ACE, and its subimplementers

   Data quality assessments

   Financial reports and other financial information reported by ACE

   E-mails and memos that documented decisions reached between USAID and ACE




                                                                                                17
                                                                                        Appendix I


We examined USAID/EGAT’s self-certifications for FYs 2009 and 2010 required by the Federal
Managers’ Financial Integrity Act8 to determine whether the bureau reported any relevant
weaknesses.

Methodology
To answer the audit objective, we gained an understanding of what USAID/EGAT intended to
accomplish through HED and its expected results as of the end of the audit period. We
interviewed key USAID/EGAT officials, including the AOTR, the agreement officer, and other
staff members involved in managing HED. We also interviewed key officials at the
implementing partner’s office, including the chief of party, program specialists, financial
management/grant officers, and monitoring and evaluation specialists. We conducted these
meetings to gain an understanding of HED’s controls and compliance with USAID requirements.

HED is implemented primarily through partnerships between U.S. higher education institutions
and host-country institutions. Therefore, we judgmentally selected 13 of 69 (19 percent) active
partnerships9 to include in our audit scope. Eleven of the selected partnerships were funded
and managed by associate awards granted by four USAID missions: USAID/Haiti,
USAID/Mexico, USAID/Senegal, and USAID/Sudan. The remaining two selected partnerships
were funded and managed by USAID/EGAT under the leader award.

Most of the partnerships are in the Latin America and Caribbean Region, and USAID/Mexico
has the largest associate award, TIES, which is $20.2 million. Therefore, we selected 3 of 13
partnerships under TIES to visit and assess HED’s results achieved. From October 3 to 14,
2011, we conducted site visits at the U.S. institution, the foreign institution, and the responsible
mission for the three selected partnerships. Specifically, we visited Emory University, Georgia
State University, and University of Texas at El Paso. In Mexico, we visited the Universidad
Autonoma de Ciudad Juarez, Universidad Panamericana, and Universidad Pedagogica
Nacional. We also visited USAID/Mexico, which funds and manages the TIES associate award.
We had telephone discussions with the regional contracting officer and the agreement officer at
USAID/El Salvador.

For the remaining 10 of 13 partnerships included in our audit scope, we sent out audit
questionnaires to HED implementers. Specifically, questionnaires went to two USAID missions,
seven U.S. institutions, and one foreign institution. They included inquiries in the areas of (1)
program design and development, (2) monitoring, evaluation, and reporting, and (3) technical
support and advisory support on various activities. These questionnaires were used to evaluate
how USAID/EGAT and the implementers provided monitoring and oversight of HED and to
assess how the partners were meeting its goals.

Given the nature of the audit objective, no materiality threshold was established. Because the
results of our testing cannot be projected to the entire population of 69 active partnerships, we
limited our conclusions to the 13 active partnerships tested.




8
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.
9
    As of March 31, 2011, HED had 69 active partnerships.


                                                                                                 18
                                                                                   Appendix II



MANAGEMENT COMMENTS



TO:                  IG/A/PA, Director, Steven Ramonas

FROM:                Eric Postel, AA/EGAT

SUBJECT:             Audit of USAID's Higher Education for Development Program (Report
                     Number 9-000-12-00X-P)

Thank you for the opportunity to respond to the Audit of USAID’s Higher Education for
Development Program (Report 9-000-12-00X-P). This memorandum transmits my comments.

The Bureau for Economic Growth, Agriculture and Trade (EGAT) concurs with the
recommendations in this report, has already identified a number of performance concerns related
to the recommendations, and has made significant progress toward addressing them. Throughout
this process the American Council on Education/Higher Education for Development (ACE/HED)
has been completely involved and we believe they also concur with the recommendations.


Recommendation 1: Develop a performance management plan (PMP) in accordance with
USAID guidelines that includes the new performance indicators

Management Response: EGAT agrees with the recommendation.

The Leader Cooperative Agreement signed with ACE/HED in 2006 and covering FY 2006-2010
required an annual Implementation Management and Evaluation Plan. In January 2012, EGAT
Office of Education (EGAT/ED) initiated a review process with ACE/HED to incorporate
performance information from the EGAT/ED Annual Portfolio Review. As a part of the review
process, EGAT/ED and ACE/HED developed ACE/HED’s FY2012 PMP in accordance with
ADS 203.3.5 as of the last policy update, January 17, 2012. A draft ACE/HED FY2012 PMP is
attached (see Attachment 1a - HED FY2012 Performance Management Plan and Attachment
1b - HED FY2012 Performance Management Plan - Evaluation Plan). The final PMP will be
approved by EGAT/ED by June 30, 2012.

In addition to the ACE/HED program PMP, as of FY2011, and pursuant to the provisions of
Modification 10 to the Leader Award (including the revised program description for FY11-15),
ACE/HED requires each new higher education partnership to establish a PMP and conduct


                                                                                            19
                                                                                       Appendix II


baseline data collection. The requirement stands whether the partnership is funded through the
LWA or an Associate Award.

Target Date for Completion of Recommendation: June 30, 2012


Recommendation 2: Review and revise targets as appropriate, and communicate with
partners regarding established targets.

Management Response: EGAT agrees with the recommendation.

On November 8, 2011, ACE/HED and EGAT/ED established a procedure and rationale for
setting targets for the newly approved set of 12 standard indicators, and set targets for FY 2012
(see Attachment 1a – HED FY2012 Performance Management Plan, Tab 2 – Targets,
Objectives 3 and 4). Targets are reviewed and revised during the November review of partner
results data submissions by ACE/HED and then jointly by ACE/HED and EGAT/ED. Results
varying more than 10 percent above or below targets are reviewed in detail. EGAT/ED is
working with ACE/HED to integrate target setting and review of targets into performance
management systems (see Recommendation 3).

Target Date for Completion of Recommendation: June 30, 2012


Recommendation 3: Conduct a more thorough, rigorous data quality assessment; specifically
verify source data and data acquisition methodologies on all standard performance indicators
that HED is required to report on.

Management Response: EGAT agrees with the recommendation.

EGAT/ED is working with ACE/HED to develop a comprehensive system for managing and
reporting results, called PRIME (Partnership Results and Information Management Engine).
PRIME provides a web-based platform for results based management and collaboration of all
implementing partners. PRIME integrates data entry and verification (both by partners and
ACE/HED) and reporting (to ACE/HED and from ACE/HED to USAID). PRIME is designed to
systematically integrate all mandatory provisions of ADS 203 Assessing and Learning. Each
ACE/HED managed partnership will be required to use PRIME for performance management
planning, data reporting, data quality verifications (DQVs), data quality assessments (DQAs),
and baseline data documentation. PRIME will be launched in early April 2012. One of the
unique features of PRIME is its ability to capture and organize source documentation to support
and verify reported data.

The ACE/HED program will be subject to three types of data review: (1) a DQA conducted by
HED or EGAT/ED at least once every three years, (2) semi-annual DQVs conducted by
ACE/HED in June and November, and (3) an annual Pre-Reporting DQV conducted by
EGAT/ED in the first week of December.




                                                                                                 20
                                                                                     Appendix II


The policy for DQAs and semi-annual DQVs was established by EGAT/ED and ACE/HED on
March 12, 2012 (see Attachment 2 - HED Data Quality Verification and Assessment – Policy
and, on page four of this memo, Figure 1: Summary of Data Review Types). A DQA will be
conducted for each HED partnership at least once every three years. As part of the DQA,
ACE/HED will assess the validity, integrity, precision, reliability, and timeliness of data in
accordance with ADS 203.3.5. In some cases, as part of the DQA, ACE/HED or EGAT/ED will
conduct Monitoring Visits to domestic and overseas partners (See Recommendation 6 for a full
description of Monitoring Visits).

In June and November, ACE/HED will conduct DQVs to verify the accuracy, consistency, and
completeness of performance indicator data and documentation. Upon concluding its November
DQV, ACE/HED will submit its data report to EGAT/ED. In the first week of December,
EGAT/ED will conduct a Pre-Reporting DQV to check the data reported by ACE/HED for
consistency and completeness. EGAT/ED is currently working on developing a Pre-Reporting
DQV policy; the policy will be finalized and approved by EGAT/ED management by June 30,
2012.

Target Date for Completion: June 30, 2012


Recommendation 4: Work with USAID’s Office of Acquisition and Assistance to establish a
plan to transfer any Washington-based awards to the mission where the activity is occurring
or to devise a plan to help monitor the activities

Management Response: EGAT agrees with the recommendation.

EGAT/ED and OAA have successfully transferred three of the six Associate Awards to field
Missions (See Attachment 3 - EGAT-ED Associate Award Transfers). Three awards were not
transferred - two because they ended on December 31, 2011 and February 29, 2012. For the
third award, EGAT/ED was asked by the USAID/Burundi Mission to retain the COR role. The
only remaining element of the award is training taking place at the University of South Carolina.
Due to the location of the training, the USAID/Burundi Mission Director indicated that it would
be “managerially much easier” for the EGAT/ED office to monitor the award, rather than the
USAID/ Burundi office (See Attachment 4 - EGAT-ED and Burundi Email Correspondence).
EGAT/ED will continue to pursue transferring responsibility to USAID/Burundi, but, in the
interim, EGAT/ED will review and approve annual work plans, monitoring and evaluation plans,
and quarterly accruals. EGAT/ED and the Mission will conduct an orderly closeout when the
agreement ends on February 28, 2013.

Target Date for Completion: Plan to transfer awards and transfers completed August 2, 2012


Recommendation 5: Work with the American Council on Education (ACE) to develop and
implement procedures for regular monitoring of HED activities and data acquisition methods
and verification of data quality.




                                                                                              21
                                                                                        Appendix II


Management Response: EGAT agrees with the recommendation.

The recommendation addresses monitoring ACE/HED data quality and acquisition methodology,
and monitoring HED activities.

As discussed in the response to Recommendation 3, EGAT/ED and ACE/HED, will implement
three data quality reviews. All three reviews include monitoring of ACE/HED data acquisition
methods and/or verification of data quality.

Monitoring of HED activities will occur through Monitoring Visits. Besides reviewing partners’
performance data, ACE/HED will substantiate that documentation matches activities in the field.
EGAT/ED and ACE/HED established a template for Monitoring Visits (See Attachment 5-
Monitoring Visits FY2012 - Template). EGAT/ED and ACE/HED staff will fill out the template
to monitor data, activities, financials and results, and record success stories and lessons learned.
Frequency of Monitoring Visits will be determined by availability of funds.

Target Date for Completion: June 30, 2012


Recommendation 6: Work with ACE to develop a more realistic reporting timeframe for
reporting data on HED’s performance indicators and to minimize the need for estimates.

Management Response: EGAT agrees with the recommendation.

On February 24, 2012 EGAT/ED reached an agreement with EGAT/PAICO to submit
ACE/HED reporting data by December 7. This date provides a realistic deadline for EGAT/ED
and ACE/HED to conduct all the reviews necessary to minimize the need for estimates.

As discussed in the response to Recommendation 3, prior to reporting data on ACE/HED’s
performance indicators ACE/HED will conduct a DQV and EGAT/ED will conduct a Pre-
Reporting DQV. ACE/HED has informed EGAT/ED that the earliest feasible date for ACE/HED
to obtain performance data from higher education institutions on the previous academic year is
the end of October of each year. ACE/HED will receive performance data from partners at that
time. During the month of November of each year, ACE/HED will conduct DQVs to minimize
the need for estimates (see Attachment 2 - HED Data Quality Verification and Assessment -
Policy). EGAT/ED will receive the report data from ACE/HED at the beginning of December
and perform a Pre-Reporting DQV in the first week of December, as discussed in
Recommendation 3. Having completed this final review, EGAT/ED will submit the reporting
data to EGAT/PAICO on or before the end of the first week of December of each year. (For a
timeline, see Attachment 6 - HED Data Quality Verification - Flow Chart).




                                                                                                 22
                                                                                          Appendix II


Target Date for Completion: June 30, 2012


Recommendation 7: Develop and implement procedures to verify data included in [the
education] sector’s Performance Plan and Reports and USAID’s Performance Accountability
Report

Management Response: EGAT agrees with the recommendation.

As outlined in the response to Recommendation 3, EGAT/ED and ACE/HED will perform three
types of data review (See Figure 1: Summary of Data Review Types).

                           Figure 1: Summary of Data Review Types

      Type                            Description                       Time Period   Responsibility
DQA               Assessment of the validity, integrity, precision,   Once every      ACE/HED and
                  reliability and timeliness of data                  three years     EGAT
Semi-Annual       Verification of the accuracy, consistency, and      May and         ACE/HED
DQV               completeness of data                                November
Annual Pre-       Verification of the consistency and                 First week of   EGAT
Reporting DQV     completeness of data                                December



Target Date for Completion: June 30, 2012


Recommendation 8: Fully disclose any data limitations in its Performance Plan and Reports
and USAID’s Performance Accountability Reports and the resulting implications for
assessing the measurement and achievement of intended results.

Management Response: EGAT agrees with the recommendation.

Any data submissions from ACE/HED that are ultimately included in a Performance Plan and
Report (PPR) and Performance Accountability Report (PAR) will include a full disclosure of all
data limitations and their resulting implications for assessing the measurement and achievement
of intended results. Information on data limitations will be recorded during performance
management planning, data collection, and data review.

Target Date for Completion: June 30, 2012



ATTACHMENTS:

Attachment 1a - HED FY 2012 Performance Management Plan

Attachment 1b - HED FY 2012 Performance Management Plan - Evaluation Plan



                                                                                                  23
                                                                       Appendix II



Attachment 2 - HED Data Quality Verification and Assessment - Policy

Attachment 3 - EGAT-ED Associate Award Transfers

Attachment 4 - EGAT-ED and Burundi Email Correspondence

Attachment 5 - Monitoring Visits - FY2012 Template

Attachment 6 - HED Data Quality Verification - Flow Chart




                                                                               24
                                                                                           Appendix II




MEMORANDUM

DATE:          March 2, 2012

TO:            IG/A/PA, Director, Steven Ramonas

FROM:          USAID/Mexico, Mission Director, Thomas R. Delaney /s/

SUBJECT:       Management response to the draft audit report of USAID’s Higher Education for
               Development (HED) Program (Report Number 9-000-12-00X-P)

This memorandum transmits USAID/Mexico’s response to the above referenced audit report, with a
focus on those recommendations (number 9-14) applicable to USAID/Mexico’s associate award with the
American Council on Education (ACE) for the HED Program.

The audit report recommendations outline weaknesses in USAID/Mexico’s internal oversight of the ACE
HED associate award (hereinafter referred to as the HED award). Because of USAID/Mexico’s decision to
end the HED associate award approximately three years earlier than expected (by November 2012
rather than September 2015), and because the USAID/Mexico staff that provided incorrect advice to
HED are no longer employed by the Mission, the Mission is confident that the recommendations
outlined below already have been addressed to a great extent. In addition, the Mission has changed its
internal management of the HED award, naming a new AOTR and ensuring closer ongoing
communication both with USAID/EGAT and with the Regional Agreement Officer.

The actions already taken and planned are further discussed below and constitute the basis for our
management decision for each recommendation.



Recommendation 9       Develop procedures to better communicate with USAID/EGAT and seek
                       participation to jointly evaluate problems or progress of HED and come up with
                       steps to address those problems.

Response: The Mission concurs with and has implemented this recommendation. Under the terms of
the agreement, the USAID/Mexico Mission is fully responsible for and directly manages the HED
associate award. USAID/Mexico has improved communication with USAID/EGAT and procedures now
call for the USAID/EGAT AOTR of the leader award to be copied on substantive correspondence related
to the USAID/Mexico associate award. As a result, the Mission is in direct communication with
USAID/EGAT on the status of the HED associate award and has collaborated with the AOTR of the HED
leader award to jointly review the planned close-out of the USAID/Mexico HED associate award. Based
on this communication and coordination, the USAID/EGAT AOTR and the USAID/Mexico AOTR have
provided similar guidance to HED for managing the close-out process, including how to handle
partnerships funded by both the leader and associate award with Mexican beneficiaries that extend into
summer 2012.




                                                                                                     25
                                                                                           Appendix II


Based upon the implementation of this recommendation, we request that this recommendation be
closed upon report issuance.



Recommendation 10      Review the unauthorized commitment and ratify it or take other action as
                       deemed necessary, and document the deposition.

Response: The Mission concurs with the following actions. Because of the Mission determination to
terminate its associate award with HED approximately three years earlier than originally expected (in
November 2012 rather than September 2015), the total amount of funds currently projected to be spent
under the agreement is within the existing agreement ceiling and a specific ratification action is not
necessary. Documentation provided by HED on February 9, 2012 as part of their close-out plan (see
copy attached as Annex 1) shows total estimated expenses under the agreement through November
2012 of $16,043,628. This amount is well below the original estimated agreement amount of $20.2
million.

The Agreement Officer officially communicated the early termination of the associate award to HED on
October 27, 2011 (see copy attached as Annex 2), and will be executing an agreement modification to
adjust the program end date and total amount by April 1, 2012. Based on the Agreement Officer’s
October 27, 2011 communication and subsequent discussions between HED and USAID/Mexico, HED is
amending all sub-agreements to reflect the revised overall associate award end date, and revised sub-
agreement timeframes and amounts.

Accordingly, and based on the plans to execute the agreement modification by April, 1, 2012, the
Mission believes that the target closure date for this recommendation should be April 30, 2012.



Recommendation 11      Implement procedures and issue instructions that all communication regarding
                       changes that directly affect the award amount or other budgetary changes to
                       the associate award and the sub-awards under it come directly from the
                       agreement officer.

Response: The Mission agrees with this recommendation. The Mission agreement officer designated a
new AOTR for the HED associate award in December 2011. The AOTR designation letter for the HED
associate award includes clear instructions regarding the authority of the AOTR and of the agreement
officer related to award amount or other budgetary changes to the associate award and the sub-awards
under it (see Annex 3).

Based on the action already taken, we request that this recommendation be closed upon issuance of the
final report.



Recommendation 12      Implement procedures for the agreement officer to improve its supervision over
                       the agreement officer’s technical representative.

Response: The Mission concurs with this recommendation. The agreement officer’s technical
representative who provided incorrect guidance to HED is no longer with USAID/Mexico. A new AOTR


                                                                                                    26
                                                                                             Appendix II


has been named as noted above, and clear instructions and authority limitations have been provided to
the AOTR by the agreement officer through the AOTR designation letter. The USAID prescribed
procedure for conveying instructions to AOTRs is the AOTR designation letter which includes roles and
responsibilities, authorities and lines of communication. In order to reinforce the instructions included
in the designation letter, and as mentioned under recommendation No. 14, the Agreement Officer will
provide refresher training to all USAID/Mexico AOTRs and COTRs during May 2012.

Based on the actions taken and planned, the target closure date for this recommendation should be set
for June 30, 2012.



Recommendation 13       Counsel the staff members involved in providing inaccurate guidance to
                        American Council on Education on the extent of their authority and the risks
                        involved if they exceed it.

Response: It is not feasible to implement the recommendation. As noted under recommendation 12,
the USAID/Mexico staff members who provided inaccurate guidance to HED are no longer employed by
USAID/Mexico. As a result, it is impractical to counsel them on their past performance. A new AOTR
has been named, and has received clear instructions on the extent of their authority and the risks
involved if they exceed it. These instructions will be further reinforced during the refresher course
planned for May 2012 (see Recommendation 14).

Based on the action already taken, we request that this recommendation be closed upon issuance of the
final report.



Recommendation 14       Assess the training needs of agreement and contracting officers’ technical
                        representatives, and implement a plan to provide them and their alternates with
                        refresher training as necessary to increase awareness of their roles and
                        responsibilities.

Response: The Mission agrees with this recommendation as a good management practice. Based on
staff rotations and turnover, most Mission AOTRs and COTRs have had AOTR/COTR training within the
last year. However, to further enhance the skills of Mission staff, the regional agreement officer will
provide refresher training to all USAID/Mexico AOTRs and COTRs during May 2012. The training will
include discussion of roles and responsibilities as well as authority limitations and risks involved if
authorities are exceeded.

The target closure date for this recommendation is June 30, 2012.



Annexes
Annex 1 – HED close-out budget
Annex 2 – Notification of HED agreement termination
Annex 3 – AOTR designation letter




                                                                                                       27
                                                                                      Appendix III


         Results of Audit Testing of Performance Indicators
  Table III-1. Variances Between Reported Results and Actual Achievements

                                                 OIG       FY 2008   FY 2009   FY 2010
   No.           Performance Indicator
                                                Testing

                                                Reported     66        78        86
           Number of higher education
    1                                            Actual      70        78        86
           partnerships
                                                Variance     -4         -         -
           Number of host-country               Reported     479       431       191
           individuals completing USG
    2      funded exchange programs              Actual      285       357       102
           conducted through higher
                                                Variance     194       74        89
           education institutions
           Number of USG-funded                 Reported     256       147       165
    3      scholarships to attend higher         Actual      249       211       153
           education institutions               Variance      7        -64       12
           Number of host-country               Reported   10,365     8,151     9,950
           individuals trained as a result of
           USG investments involving             Actual     9,689    10,218     9,639
    4
           higher education institutions
           (includes degree and nondegree       Variance     676     -2,067      311
           programs)
           Number of host-country               Reported     66        59        73
           institutions with increased
    5      management capacity as a result       Actual      62        75        73
           of USG investments involving
           higher educational institutions      Variance      4        -16        -

                                                Variance     208       208       332
           Number of USG-assisted higher
    6      education activities that address     Actual      114       102       294
           development needs
                                                Variance     94        106       38
           Number of USG-assisted host-         Reported     42        50        37
           country policy development and
    7      reform activities utilizing host      Actual      35        34        37
           country higher education
           institutions                         Variance      7        16         -
           Number of USG-funded                 Reported     66        78        81
           scholarship and exchange
    8                                            Actual      70        78        86
           programs conducted through
           higher education institutions        Variance     -4         -        -5
           Number of USG-supported              Reported     290       244       304
           organizational improvements
    9                                            Actual      236       243       612
           that strengthen institutional
           capacity                             Variance     54         1       -308

Note: Variances shown are differences between USAID’s reported results and HED’s
actual achievements per its database.




                                                                                               28
                                                                                                       Appendix III


                      Table III-2. Reported Targets and Actual Achievements

                                                   FY 2008                   FY 2009                  FY 2010
No.              Indicator
                                          Target    Actual    %     Target    Actual   %     Target    Actual   %

      Number of higher education
1                                          75        70       93     58         78     134    80         86     108
      partnerships
      Number of host-country
      individuals completing USG-
2     funded exchange programs             520       285      55     300       357     119    300       102     34
      conducted through higher
      education institutions
      Number of USG-funded
3     scholarships to attend higher        93        249     268     200       211     106    150       153     102
      education institutions
      Number of host-country
      individuals trained as a result
      of USG investments involving
4                                         2,800     9,689    346    8,000     10,218   128   8,000      9,639   120
      higher education institutions
      (includes degree and
      nondegree programs)
      Number of host-country
      institutions with increased
      management capacity as a
5                                          55        62      113     58         75     129    65         73     112
      result of USG investments
      involving higher educational
      institutions
      Number of USG-assisted
      higher education activities
6                                          80        114     143     175       102     58     200       294     147
      that address development
      needs
      Number of USG-assisted
      host-country policy
7     development and reform               25        35      140     38         34     89     36         37     103
      activities utilizing host-country
      higher education institutions
      Number of USG-funded
      scholarship and exchange
8                                          62        70      113     58         78     134    70         86     123
      programs conducted through
      higher education institutions
      Number of USG-supported
      organizational improvements
9                                          106       236     223%    275       243     88     225       612     272
      that strengthen institutional
      capacity




                                                                                                                 29
                                                                                                 Appendix III


      Table III-3. Differences Between Reported Estimates and Actual Achievements

                                          FY 2008                   FY 2009                    FY 2010
No.          Indicator
                                  Est.      Actual   Dif.   Est.    Actual     Dif.    Est.     Actual   Dif.

      Number of USG-funded
      scholarships to attend
3                                 256        249      7     147      211       -64     165       153     12
      higher education
      institutions
      Number of host-country
      individuals trained as a
      result of USG
      investments involving
4                                10,365     9,689    676    8,151   10,218    -2,067   9,950    9,639    311
      higher education
      institutions (includes
      degree and nondegree
      programs)
      Number of host-country
      institutions with
      increased management
5     capacity as a result of     66         62       4      59       75       -16      73       73       0
      USG investments
      involving higher
      educational institutions
      Number of USG-funded
      scholarship and
      exchange programs
8                                 66         70      -4      78       78        0       81       86       -5
      conducted through
      higher education
      institutions
      Number of USG-
      supported organizational
9     improvements that           290        236     54     244      243        1      304       612     -308
      strengthen institutional
      capacity




                                                                                                              30
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
